ER-B-99-04




     AUDIT
    REPORT

                         CREDIT CARD USAGE AT THE OHIO
                        FIELD OFFICE AND THE FERNALD AND
                           MIAMISBURG ENVIRONMENTAL
                              MANAGEMENT PROJECTS




                                           MARCH 1999

 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                       DEPARTMENT OF ENERGY
                                          Washington, DC 20585
                                             March 15, 1999

MEMORANDUM FOR THE MANAGER, OHIO FIELD OFFICE

FROM:         Terry L. Brendlinger, Manager (Signed)
              Eastern Regional Audit Office
              Office of Inspector General

SUBJECT:      INFORMATION: Audit Report on "Credit Card Usage at the Ohio Field Office and the
              Fernald and Miamisburg Environmental Management Projects"

BACKGROUND

The Department of Energy (Department) obtained the services of Rocky Mountain BankCard System,
through the use of a General Services Administration contract, as a means for the Department and its
contractors to make small purchases. The Ohio Field Office (Field Office) uses the credit card system
and oversees usage by the Fernald and Miamisburg Environmental Projects. Contractors under the Field
Office also use the credit card system to make small purchases. The objective of this audit was to
determine whether the Field Office, the Fernald and Miamisburg Environmental Management Projects,
Fluor Daniel Fernald (Fluor Daniel), and Babcock and Wilcox of Ohio (B&W) were using credit cards for
appropriate purposes and within the limitations established by Federal and Departmental regulations.

RESULTS OF AUDIT

The Field Office, the Fernald and Miamisburg Environmental Management Projects, and B&W appeared
to be using credit cards for appropriate purposes and within limitations. However, Fluor Daniel was not.
Fluor Daniel incurred and claimed credit card charges that were unallowable and non-reimbursable under
the terms of the contract. This occurred because credit cardholders were not provided adequate guidance
on items considered unallowable, and managers were not consistently monitoring purchases. As a result,
the Department reimbursed Fluor Daniel about $42,000 in unallowable costs in Fiscal Year (FY) 1998.
Therefore, we recommended that the Manager, Ohio Field Office, require Fluor Daniel to: (1) specify
unallowable and non-reimbursable items in its credit card policy and cardholder guidelines, (2) require
managers to monitor and approve credit card charges, and (3) recover about $42,000 from Fluor Daniel
for the unallowable items invoiced and reimbursed in FY 1998.

MANAGEMENT REACTION

Management agreed with the audit finding and recommendations and stated that appropriate action would
be taken to correct the conditions disclosed in the report.

Attachment
CREDIT CARD USAGE AT THE OHIO FIELD OFFICE AND THE FERNALD
AND MIAMISBURG ENVIRONMENTAL MANAGEMENT PROJECTS


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective .........................................................1

                 Conclusions and Observations.................................................. 1


                 CREDIT CARD CHARGES

                 Details of Finding ......................................................................3

                 Recommendations and Comments ...........................................4


                 Appendix

                 Scope and Methodology ............................................................5
Overview

INTRODUCTION AND   In 1994 the Department obtained the services of Rocky Mountain
OBJECTIVE          BankCard System, through the use of a General Services Administration
                   contract, as a means for the Department and its contractors to make
                   small purchases. The use of credit cards was expected to simplify small
                   purchase procedures and improve cash management. The Field Office
                   uses the credit card system and oversees usage by its area offices.
                   Contractors under the Field Office also use the credit card system to
                   make small purchases. In fact, one of its contractors, Fluor Daniel, has
                   automated its system. With the P-Card system, Fluor Daniel's
                   cardholders enter orders each month, and the bank downloads
                   transactions so the cardholders can reconcile their charges through the
                   software. The P-Card system downloads directly into Fluor Daniel's
                   accounting system.

                   The Office of Inspector General (OIG) has issued one audit report
                   concerning the use of credit cards. In April 1996, the OIG issued
                   Report WR-B-96-06, Audit of Bonneville Power Administration's
                   Management of Information Resources. The audit concluded that
                   improvements could be made in implementing credit card and property
                   procedures in Bonneville's management of computer-related equipment.
                   Specifically, many credit card purchases were made by employees whose
                   authority to buy was not properly documented, and the purchasing files
                   often lacked invoices that would show what was purchased.
                   Additionally, some cardholders split purchases to avoid credit card
                   limits.

                   The objective of this audit was to determine whether the Field Office,
                   Fernald and Miamisburg Environmental Management Projects, Fluor
                   Daniel, and B&W were using credit cards for the appropriate purposes
                   and within the limitations established by Federal and Departmental
                   regulations.

                   The Field Office, Fernald and Miamisburg Environmental Management
CONCLUSIONS AND    Projects, and B&W appeared to be using credit cards for appropriate
OBSERVATIONS       purposes and within established limitations. However, Fluor Daniel was
                   not. Fluor Daniel incurred and claimed credit card charges that were
                   unallowable and non-reimbursable under the terms of the contract. This
                   occurred because credit cardholders were not provided adequate
                   guidance on items considered unallowable and managers were not
                   consistently monitoring purchases. As a result, the Department
                   reimbursed Fluor Daniel $42,000 in unallowable costs in FY 1998.




Page 1                                                      Introduction and Objective/
                                                         Conclusions and Observations
         The audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                                 (Signed)
                                            Office of Inspector General




Page 2                                        Conclusions and Observations
CREDIT CARD CHARGES


Credit Cards Were          Fluor Daniel did not always use its credit cards for appropriate purposes.
Not Always Used            Some cardholders used credit cards to purchase items that were
Appropriately              unallowable under the terms of Fluor Daniel's contract. These
                           unallowable items included employee morale and recognition, items
                           given to employees as safety incentives, and photos and memorabilia for
                           community involvement and charitable activities. For example,
                           cardholders charged $14,000 in employee recognition for award pins for
                           employees' years of service. Also, $11,900 was charged for safety
                           incentives for employees.

                           The contract between the Department and Fluor Daniel specifically
Contract Terms and
                           disallowed employee morale type items. After a Congressional hearing
Internal Policy Identify
                           and public criticism of Fluor Daniel's expenses for employee morale and
Unallowable Costs
                           awards in 1993, Fluor Daniel's contract was modified to specify that
                           employee morale type items were unallowable. Additionally, Fluor
                           Daniel's acquisition practices stated that some public relations activities
                           were unallowable and non-reimbursable. More specifically, Fluor Daniel
                           considered non-reimbursable items to include refreshments for meetings,
                           employee recognition, morale events, safe work hour recognition,
                           personalized items, awards, and community involvement and
                           contributions. These items were normally charged to non-reimbursable
                           accounts. However, Fluor Daniel credit cardholders did not consistently
                           charge these items to non-reimbursable accounts.

                           Unallowable costs were incurred and claimed because cardholders were
Fluor Daniel Cardholders   not provided adequate guidance on what is considered non-reimbursable
Lacked Guidance and        costs. Fluor Daniel's credit card policy states that unallowable credit
Monitoring                 card purchases include "non-reimbursables: i.e., personalized items,
                           awards (for questions, call Finance)." However, since this policy was
                           not specific, cardholders and managers were not always aware of what
                           Finance considered unallowable and would not necessarily look for
                           unallowable items.

                           Additionally, approving officials and cost account managers did not
                           consistently monitor card purchases. Close review of credit card
                           purchases could have identified the unallowable items. Further, Fluor
                           Daniel Internal Audit has reported that cost account managers have not
                           consistently approved credit card charges in prior audits.




Page 3                                                                           Details of Finding
Costs Were Unallowable   As a result, Fluor Daniel incurred and the Department reimbursed
                         $42,000 for unallowable and non-reimbursable items in FY 1998.

RECOMMENDATIONS          We recommend that the Manager, Ohio Field Office:

                             1. Require Fluor Daniel to specify unallowable and non-
                                reimbursable items in its credit card policy and cardholder
                                guidelines,

                             2. Require managers to monitor and approve credit card
                                charges, per Fluor Daniel's credit card policy, and

                             3. Recover $42,000 from Fluor Daniel for the unallowable and
                                non-reimbursable items invoiced to and reimbursed by the
                                Department in FY 1998.

                         Management concurred with the finding and recommendations and
MANAGEMENT REACTION
                         agreed to take corrective actions and recover any unallowable costs.
                         Management deferred its determination of total unallowable costs to
                         be recovered pending further analysis of additional data provided by
                         Fluor Daniel. Management stated that by March 17, 1999, written
                         direction will be provided to Fluor Daniel to revise its credit card
                         policy and cardholder guidelines to specify unallowable and non-
                         reimbursable items. Further, written direction will be provided by
                         March 17, 1999, to require Fluor Daniel managers to monitor and
                         approve credit card charges, per its own policy. The determination of
                         unallowable costs recovery will be completed within one month after
                         issuance of the final report.

                         Management comments are responsive to the finding and
AUDITOR COMMENTS         recommendations.




Page 4                                                 Recommendations and Comments
Appendix

SCOPE         The audit was performed from November 23, 1998, to February 8,
              1999, at the Field Office and the Fernald and Miamisburg Environmental
              Management Projects. Additionally, we covered two contractors under
              the Field Office's purview: Fluor Daniel and B&W. The audit covered
              FY 1998 credit card charges for all sites. During FY 1998, the Field
              Office and the Fernald and Miamisburg Environmental Management
              Projects incurred credit card charges of $238,000, Fluor Daniel incurred
              $3.6 million, and B&W incurred $1.6 million.

METHODOLOGY   To accomplish the audit objective, we:

                 • Reviewed Federal and Departmental regulations for the use of
                   credit cards for small acquisitions,

                 • Evaluated contract terms and contractor policies and guidelines
                   for credit card usage,

                 • Held discussions with Department and contractor staff regarding
                   the effectiveness of credit card usage, and

                 • Evaluated the appropriateness and allowability of credit card
                   purchases.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental and contractor policies,
              procedures, and performance measures related to the management and
              control of credit card usage for small acquisitions. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit.

              We relied on computer-generated data in automated purchase card and
              accounting systems. We assessed the reliability of the data as it
              pertained to the audit objective, including relevant general and
              application controls and found them to be adequate. Based on these
              assessments, we concluded that the data were sufficiently reliable to be
              used in meeting the audit objective.

              An exit conference was waived by the Audit Liaison of the Ohio Field
              Office.


Page 5                                                      Scope and Methodology
                                                                                IG Report No.: ER-B-99-04

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                   Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
